No.

In The

Supreme Court of the United States
JERRIS M. BLANKS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Petitioner Jerris M. Blanks moves the Court under Supreme Court Rule 39
for leave to proceed in forma pauperis.
A judge of the United States District Court for the Eastern District of
Missouri determined Mr. Blanks to be indigent under 18 U.S.C. ยง 3006A.

The

United States Court of Appeals for the Eighth Circuit appointed undersigned
counsel to represent Mr. Blanks on appeal.
Mr. Blanks has been incarcerated since the jury found him guilty in this
criminal case on January 16, 2019, and remains indigent. Through counsel, he will
file in this Court a petition for a writ of certiorari and wishes to do so in forma
pauperis.

Accordingly, Mr. Blanks asks this Court to allow him to proceed in forma
pauperis.
Respectfully submitted,
JONATHAN STERNBERG
Counsel of Record
JONATHAN STERNBERG, ATTORNEY, P.C.
2323 Grand Boulevard #1100
Kansas City, Missouri 64108
Telephone: (816) 292-7020
Facsimile: (816) 292-7050
jonathan@sternberg-law.com
Counsel for Petitioner
August 19, 2021

